                       The Virgin Islands Department of Education
                  Did Not Effectively Manage Its Federal Education Funds




                                            FINAL AUDIT REPORT




                                               ED-OIG/A02-C0012
                                                September 2003




                                                                  U.S. Department of Education
Our mission is to promote the efficiency,                           Office of Inspector General
effectiveness, and integrity of the                                    New York Audit Region
Department’s programs and operations.                                       Boston Area Office
                                                                       Puerto Rico Area Office
                                NOTICE 


  Statements that managerial practices need improvements, as well as other
conclusions and recommendations in this report represent the opinions of the
Office of Inspector General. Determinations of corrective action to be taken
     will be made by the appropriate Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports
   issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
              therein is not subject to the exemptions in the Act.
                           UNITED STATES DEPARTMENT OF EDUCATION

                                              OFFICE OF INSPECTOR GE NERAL


                                                         SEP 30         2003
Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie
St. Thomas, Virgin Islands 00802

Dear Governor Turnbull:

Enclosed is our fmal audit report, Control Number ED-OIG/A02-COOI2, entitled The Virgin
Islands Department of Education Did Not Manage Its Federal Education Funds. This report
incorporates the comments you provided in response to the draft report. If you have addition al
comments or information that you believe may have a bearing on the resolution of this audit, you
should send them directly to the following Education Department official, who will consider
them before taking final Departmental action on this audit:

                Ronald Tomalis
                Acting Assistant Secretary for Elementary and Secondary Education
                U.S. Department of Education
                Federal Building No.6, Room 3W315
                400 Maryland Ave, SW
                Washington, DC 20202

It is the policy of the U .S . Department of Education to expedite the resolution of audits by
initiating timely action on the fmdings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office ofInspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.


                                                      Sincerely,

                                                       f{t~W
                                                      Helen Lew
                                                      Assistant Inspector General for Audit Services



Enclosure


                                     400 MARYLAND AVE., S.W. WASHlNGTON. D.C. 20202-1510

             Our mission is to ensu.re equal access to education. and to promote edu.cational excellence throughout the Nation.
                                             TABLE OF CONTENTS 



                                                                                                                                  Page

EXECUTIVE SUMMARY ........................................................................................................ 1 


AUDIT RESULTS

Finding No. 1            VIDE had approximately $6.8 million in ED funds that lapsed ..............2 

                            Recommendations ...................................................................................4 

                            VIDE Comments .....................................................................................4 

                            OIG Response..........................................................................................4 


Finding No. 2            VIDE improperly expended $1.5 million in expired ED funds.................6 

                            Recommendations ...................................................................................7 

                            VIDE Comments .....................................................................................8 

                            OIG Response..........................................................................................8 


Finding No. 3            VIDE failed to use or return $482,085 in duplicate payments from 

                         ED in a timely manner..................................................................................9 

                            Recommendations .................................................................................10 

                            VIDE Comments ...................................................................................10 

                            OIG Response........................................................................................10 


Finding No. 4            VIDE’s processes for maintaining and monitoring encumbrance data 

                         were ineffective............................................................................................11 

                            Recommendations .................................................................................12             

                            VIDE Comments ...................................................................................12 

                            OIG Response........................................................................................13 


Finding No. 5            VIDE did not monitor the status or receipt of deliverable goods 

                         and services after making advance payments to vendors .......................14 

                            Recommendations .................................................................................15 

                            VIDE Comments ...................................................................................15 

                            OIG Response........................................................................................15 


BACKGROUND .......................................................................................................................16 


OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................16 


STATEMENT ON MANAGEMENT CONTROLS..............................................................17 


ATTACHMENT A: DETAIL OF LAPSED FUNDS AS OF MARCH 12, 2003

ATTACHMENT B: VIDE’s PARTIAL RESPONSE TO THE DRAFT REPORT
                                    Executive Summary

The U.S. Department of Education (ED), Office of Inspector General (OIG) performed an audit 

to determine whether the Virgin Islands Department of Education (VIDE) was effectively 

managing and appropriately expending its Federal education funds. Our audit covered grants 

awarded during the period October 1, 1994 through February 24, 2000. 


We found that VIDE did not effectively manage and appropriately expend funds granted by ED. 

Specifically, VIDE 


   had approximately $6.8 million in ED funds that lapsed, 

   improperly expended $1.5 million in expired ED funds, 

   failed to use or return $482,085 in duplicate payments from ED in a timely manner, 

   failed to effectively maintain and monitor encumbrance data, and 

   did not monitor the status or receipt of deliverable goods and services after making advance 

    payments to vendors.

To correct these deficiencies, we recommend that ED require VIDE to

   access and use the data in ED’s Grant Administrative Payment System (GAPS) to be fully
    aware of the grants received, payments made, available balances, and funding periods, and
    improve its internal grant tracking system to reconcile regularly with the data in GAPS;
   return to ED $1.5 million of expired funds expended improperly and implement procedures
    to ensure that ED funds are only spent for obligations made during allowable grant periods;
   return to ED $7,641 not recognized as a duplicate payment from ED, determine the interest
    liability associated with the untimely use or return of the duplicate payments, and develop
    and implement procedures that will allow for the immediate return or use of any duplicate
    payments from ED;
   develop a process that would allow VIDE to monthly reconcile the Financial Management
    System’s (FMS) encumbrance data with VIDE’s known obligations; and
   establish written procedures and implement practices to monitor the receipt of goods and
    services after making advance payments to vendors.

In its response to the draft report, VIDE disagreed with the substance of Findings 1, 2 and 3, as
well as Recommendation 2.1, which asked for the return of $1.5 million of improperly expended
funds, and Recommendation 3.1, which asked for the return of $139,387–most of which they
have now refunded. VIDE agreed to implement the remaining recommendations, some of which
were also required as part of the September 23, 2002, Compliance Agreement between ED and
the Virgin Islands (VI). This Compliance Agreement compelled the VI to develop solutions to
problems in managing Federal education funds and programs. A portion of VIDE’s written
response to the draft report has been included as Attachment B to this report. Because of the
voluminous response, we have not included all documents in this Attachment. Copies of those
attachments are available on request. We also summarized VIDE’s responses at the end of the
respective findings. Where appropriate, we changed the report to reflect the impact of the
information VIDE provided.
The Virgin Islands Department of Education                                                    Final Report
Did Not Effectively Manage Its Federal Education Funds                                     ED/OIG A02-C0012



                                                AUDIT RESULTS 


Finding 1

VIDE had approximately $6.8 million in ED funds that lapsed


VIDE was not always aware of grant awards, available balances, and funding periods.
Consequently, as of March 12, 2003, VIDE had $6,756,320 that lapsed from 15 ED grants,
awarded from October 1, 1994 through February 24, 2000. Of that amount, $868,889 from five
of the grants was de-obligated and reverted to the U.S. Treasury. The remaining $5,887,431
from the other 10 grants lapsed and will also revert to the U.S. Treasury unless VIDE can
provide evidence to ED of outstanding expenses obligated during the grant periods. This
occurred because VIDE neither used readily available information from ED nor had an adequate
internal tracking system to monitor its grants.

According to 34 C.F.R. § 80.20 (b) (2),1 accounting records “[M]ust contain information
pertaining to grant or subgrant awards and authorizations, obligations, unobligated balances,
assets, liabilities, outlays or expenditures, and income.”

The regulations at 34 C.F.R. § 80.20 (b) (3) provide that “Effective control and accountability
must be maintained for all grant and subgrant cash . . . .”

GAPS shows information on grant awards, such as total authorizations, pending and confirmed
payments, drawdowns, and available balances. However, VIDE did not effectively use GAPS to
monitor its Federal education grants.

After ED-OIG identified the potential for VIDE’s grant funds to lapse, we reviewed GAPS data
on all Federal education grants and found 20 grants that had available balances as of August 9,
2001. One of the grants, the 1995 Elementary and Secondary Education’s Consolidated Grant,
had an available balance of $148,252. On September 30, 2001, the balance was de-obligated and
reverted to the U.S. Treasury. As of March 12, 2003, GAPS data revealed that four additional
grants had available balances totaling $720,637 that were also de-obligated and reverted to the
U.S. Treasury. Of the remaining 15 grants, 10 grants had $5,887,431 in lapsed funds. Those
funds could only be used to liquidate obligations made during the period of availability if VIDE
obtained authorization from ED.

Because valid obligations were not being paid within the Federal funding period, the VIDE
Federal Grants Office had to repeatedly submit written requests for grants to be reopened.
According to the VIDE’s Director of the Federal Grants Office, VIDE requests to reopen Federal
grants were common because of the VI’s problems associated with late payments to vendors and
with the vendors not providing the goods until they received payment.



1
    Unless otherwise specified, all regulatory citations are to the July 1, 2000 volume.


                                                             2
The Virgin Islands Department of Education                                  Final Report
Did Not Effectively Manage Its Federal Education Funds                   ED/OIG A02-C0012

ED program officials did not always authorize the reopening of grants. VIDE officials indicated
that they often did not receive a response from ED program officials authorizing the draw down
of funds, particularly if documentation was not provided to support the reopening of a grant.

VIDE’s inability to effectively monitor its use of Federal education funds was also impacted by
differences in data used by VIDE, which caused grant funds to lapse. The VI Department of
Finance (VI Finance) maintained the official accounting records for the VI Government on an
automated data processing system – the Financial Management System (FMS). The system
included data for VIDE’s obligations and was designed to track the initial encumbrance of funds,
adjustments to encumbrances, expenditure postings, and transactions to liquidate and close
encumbrances. However, the FMS data did not agree with either the grant information in GAPS
or the VIDE Business Office’s account balances, resulting in lapsed funds. For example:

   1997 Consolidated Grant - S922A970004: The FMS showed outstanding obligations totaling
    $693,986, while GAPS showed an available balance to pay those obligations totaling
    $1,057,598. However, the VIDE Business Office could not provide us any documentation to
    support the outstanding obligations. As a result, the $1,057,598 lapsed.

   1998 Consolidated Grant - S922A98004: The FMS showed outstanding obligations totaling
    $995,225, while the VIDE Business Office provided us documentation to support obligations
    pending to be paid totaling $96,404. GAPS showed an available balance to pay those
    obligations totaling $2,177,894. Thus, the remaining $2,081,490 ($2,177,894 - $96,404)
    lapsed.

   1999 Technology Literacy Challenge Grant - S318X990056: The FMS showed outstanding
    obligations totaling $104,473, while the VIDE Business Office provided us documentation to
    support obligations pending to be paid totaling $8,752. GAPS showed an available balance
    to pay those obligations totaling $528,552. Thus, the remaining $519,800 ($528,552 -
    $8,752) also lapsed.

VIDE was unaware of one Goals 2000 grant, which caused grant funds to lapse. GAPS data
showed two Goals 2000 grants awarded during 1999, one for $502,715 (S276A990026) and
another for $500,127 (S276A990036). The S276A990026 grant reflected confirmed payments
totaling $500,127. No monies had been drawn down from the other grant. The VIDE’s Director
of the Federal Grants Office indicated that the $500,127 spent belonged to the S276A990036
grant, but were posted in GAPS against the other grant. He stated ED would not approve two
Goals 2000 grants in one award year. Since he was unaware of the S276A990026 grant, the
$502,715 lapsed.

Attachment A identifies the 20 grants reviewed, the total amount of funds authorized for each
grant, the GAPS balance as of March 12, 2003, and the funds that lapsed from 15 of the grants.
The lapsed funds column takes into consideration the grants’ balances that were de-obligated and
reverted to the U.S. Treasury and the outstanding obligations that we reviewed and found to be
legitimate.




                                                         3

The Virgin Islands Department of Education                                     Final Report
Did Not Effectively Manage Its Federal Education Funds                      ED/OIG A02-C0012

Recommendations:

We recommend that the Assistant Secretaries for Elementary and Secondary Education, Special
Education and Rehabilitative Services, and Postsecondary Education, and the Director for
English Language Acquisition, Language Enhancement, and Academic Achievement for Limited
English Proficient Students require VIDE to:

1.1 	 Access and use the data in GAPS to be fully aware of the grants received, payments made,
      available balances, and funding periods;

1.2 	 Improve its internal grant tracking system and reconcile regularly with the data in GAPS;

1.3 	 Utilize its internal grant tracking system to identify outstanding obligations and liquidate
      them prior to the closing of a grant. This will require reconciliation between GAPS, FMS,
      and records maintained by the VIDE Business Office; and

1.4 	 Provide ED program officials with requisitions’ documentation when requesting grants to
      be reopened.

VIDE Comments – VIDE did not fully agree with the cause of this finding, primarily because of
what it claimed was mismanagement by ED. VIDE admitted to being responsible for about $2.6
million in Federal education funds lapsing, but claimed the remainder of the lapsed funds is
directly the fault of ED. Specifically, VIDE claimed that ED failed to respond to VIDE’s request
to reopen grants totaling over $3.1 million. To support its claim, VIDE provided an Excel
spreadsheet detailing the requests to reopen specific grants and the associated outstanding
obligations associated with each grant. In addition, VIDE stated that it did not receive notice of
$1,011,704 in Goals 2000 grant awards.

VIDE concurred with the four recommendations for improving its administrative capabilities and
oversight management of ED funds. Since the recommendations parallel the requirements set
out in the September 23, 2002 Compliance Agreement, VIDE indicated that it had taken or
would take action to fulfill its obligations.

OIG Response – VIDE is ultimately responsible for managing Federal funds and assuring that
payments are made on a timely basis. Although VIDE contended that certain grants had
outstanding obligations, we saw very limited evidence of valid invoices for those grants.

The VIDE Business Office did not provide documentation to support its claims for over $1
million in outstanding obligations for the 1997 Consolidated Grant. For the 1998 Consolidated
Grant, the VIDE Business Office provided support for only $96,404 of outstanding obligations,
versus the $1.2 million claimed. At the time of our audit, the 1995 Consolidated Grant had been
irrevocably closed, and the funds reverted to the U.S. Treasury.

VIDE failed to work more closely with ED to follow up on its requests to reopen grants. The
Goals 2000 grants (S276A99026) and (S276A970059) appeared to be two cases where VIDE
was not aware of the grants. VIDE had spent $500,127 of the S276A99036 grant, but those
expenses were posted in GAPS against the S276A99026 grant. ED program officials could not


                                                         4

The Virgin Islands Department of Education                                     Final Report
Did Not Effectively Manage Its Federal Education Funds                      ED/OIG A02-C0012

explain how the S276A99026 grant appeared on GAPS nor provide the award notification for the
grant. ED program officials were also unable to provide a copy of documents for the
S276A970059 grant. Although VIDE stated that it did not receive the grant award for the
S276A970059 grant, GAPS records indicated that $16,355 was drawn down from this grant.

Although disputes remain about who was responsible for grant funds lapsing, VIDE must work
more closely with ED program officials to assure that it is aware of all grant awards, that funds
do not lapse, and that it monitors grant balances to assure obligations are made prior to the end of
the Tydings period.




                                                         5

The Virgin Islands Department of Education                                    Final Report
Did Not Effectively Manage Its Federal Education Funds                     ED/OIG A02-C0012



Finding 2

VIDE improperly expended $1.5 million in expired funds


VIDE expended $1,535,287 in funds from the 1995 and 1997 Consolidated Grants to pay for
expenses incurred after the obligation periods. This included $649,025 expended in funds from
the 1995 grant related to requisitions dated May 1999, and $886,262 expended in funds from the
1997 grant related to payroll expenses for August and September 2000.

Weaknesses in VIDE’s fund management resulted in these improper expenditures. First, VIDE
did not have procedures in place to assure that funds were spent only for obligations incurred
within the allowable grant period, including the one year Tydings period. Second, VIDE lacked
effective communication with ED. Based upon correspondence with ED, VIDE believed it had
written authorization from ED to obligate and expend the 1995 grant funds through June 1, 1999.
Although VIDE did not provide any documentation of authorization from ED to use the 1997
grant funds, a VIDE official stated they had verbal approval from ED to use the 1997 funds.

Pursuant to 34 C.F.R. § 80.23 (a), “Where a funding period is specified, a grantee may charge to
the award only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted. (b) A grantee must liquidate all obligations incurred under the
award not later than 90 days after the end of the funding period. . . .The Federal agency may
extend this deadline at the request of the grantee.”

Under the “Tydings Amendment” Section 412 (b) of the General Education Provisions Act, 20
U.S.C. 1225 (b), any funds not obligated and expended during the period for which they were
awarded become carryover funds and may be obligated and expended during the succeeding
fiscal year.

We reviewed GAPS data to determine whether VIDE had drawn funds after the expiration of the
Tydings period. We focused on the 1995, 1997 and 1998 Consolidated Grants because their
draws were the largest. We assessed the validity of draws made and found that VIDE
improperly expended $1,535,287 in funds from the 1995 and 1997 Consolidated Grants. For the
1998 Consolidated Grant draws reviewed, VIDE properly obligated the funds within the Tydings
period.

1995 Consolidated Grant

The authorized funding for the 1995 Consolidated Grant totaled $17.6 million. The funding
period ran from October 1, 1995 through September 30, 1996. The obligation period was
extended through September 30, 1997 due to the Tydings period. VIDE requested an extension
due to the cancellation of requisitions for goods and services from mainland vendors and
purchase orders that could not be delivered due to unforeseen circumstances. As a result, on
November 24, 1998, ED confirmed to VIDE the reactivation of the available amount so that
VIDE could draw down funds through March 31, 1999. VIDE then requested an additional two-


                                                         6

The Virgin Islands Department of Education                                   Final Report
Did Not Effectively Manage Its Federal Education Funds                    ED/OIG A02-C0012

months extension. In response, ED granted an additional extension, through June 1, 1999, to
expend the funds for purchases/obligations that were incurred during fiscal year 1995. Based on
the correspondence with ED, VIDE contended that ED had allowed them to obligate funds from
the reactivated grant beyond the Tydings period.

We judgmentally selected for review five draws totaling $696,883 to ensure that obligations
were not made after the Tydings period and found that $649,025 did not relate to expenses
incurred during the grant period. The draws tested were all made in January or May 1999.
The January 1999 draws generally related to expenses incurred within the Tydings period.
However, the May 1999 draws were all related to requisitions dated May 1999 for expenses
incurred after the Tydings period.

1997 Consolidated Grant

The authorized funding for the 1997 Consolidated Grant totaled $36.9 million. It included 1996
and 1997 funds. The funding period ran from July 1, 1997 through September 30, 1998. The
obligation period was extended through September 30, 1999, the end of the Tydings period.
Although VIDE did not have any documentation from ED authorizing the use of funds from the
grant after the end of the Tydings period, GAPS data showed that the grant was reopened to
allow for additional draws until April 27, 2001.

We judgmentally selected for review five draws made from September 2000 through April 2001
totaling $1,944,946 to ensure that obligations were not made after the Tydings period and found
that $886,262 from two of the draws did not relate to expenses incurred during the grant period.
The draws were used for year 2000 payroll expenses. Of that amount, $446,928 was for the pay
period ending August 26, 2000 and $439,334 for the pay period ending September 9, 2000.

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education require
VIDE to:

2.1 	 Return to ED the $1,535,287 of expired funds expended improperly;

2.2 	 Implement procedures to ensure that ED funds are only spent for obligations made during
      the allowable grant period; and

2.3 	 Provide ED program officials with expense documentation, ensuring that the original
      obligation dates were within the Tydings period, whenever grants are to be reopened.




                                                         7

The Virgin Islands Department of Education                                     Final Report
Did Not Effectively Manage Its Federal Education Funds                      ED/OIG A02-C0012

VIDE Comments – VIDE did not concur with the recommended return of the $1,535,287 in
expired ED funds. To support its argument, VIDE provided documentation that it received
permission from ED to obligate and liquidate $649,025 from the 1995 Consolidated Grant.
VIDE officials stated that an ED employee extended VIDE’s liquidation/obligation period
through March 31, 1999. Accordingly, VIDE contended that because of ED’s improper grants
management, it was unfair to fault VIDE and force it to repay the funds, when VIDE depends on
ED for technical assistance and advice.

For the $886,262 in Consolidated Grant funds used for payroll costs, VIDE argued that the funds
were drawn against the 1999 Consolidated Grant and that the expenses were legitimate.
However, VIDE then stated that it should be allowed to transfer the costs to the 1998
Consolidated Grant. That transfer would only entail an adjustment to the VI Finance postings on
its part and an adjustment by ED to reflect a draw on the 1998 grant, not the 1997 grant.

VIDE officials stated that they had implemented procedures to ensure that ED funds are only
spent for obligations made during the allowable grant period in accordance with the September
23, 2002 Compliance Agreement. VIDE also agreed to provide ED program officials with
expense records whenever grants are to be reopened.

OIG Response – Although an ED employee extended VIDE’s liquidation/obligation period of
the 1995 Consolidated Grant through March 31, 1999, the employee did not have the authority to
extend the period beyond that which was allowed by law and regulations. In addition, the 1995
grant expenses of $649,025, which we are recommending for disallowance and return to ED,
were related to requisitions dated in May 1999. These requisitions were dated after the March
31, 1999 extension date and long after September 30, 1997, the legal end of the obligation
period.

Regarding the $886,262 in Consolidated Grant funds, VIDE stated the payroll costs had been
drawn down from the 1999 grant. However, the funds were drawn from the 1997 grant. Since
the payroll charges appeared to be legitimate, the use of 1998 grant funds to pay for those costs
would be appropriate. However, the 1998 grant is also closed.




                                                         8

The Virgin Islands Department of Education                                   Final Report
Did Not Effectively Manage Its Federal Education Funds                    ED/OIG A02-C0012



Finding 3

VIDE failed to use or return $482,085 in duplicate payments from ED in a timely manner


VIDE received $482,085 in duplicate payments from ED, one for $346,363, one for $128,081,
and one for $7,641, but did not use or return the funds to ED within the required three business
days. As a result, VIDE incurred an interest liability of $28,261 to the Federal Government.
While VIDE officials were aware of the $346,363 and the $128,081 duplicate receipts, they did
not recognize having received the additional $7,641 payment. VIDE officials indicated that they
were not aware of the three-day requirement to use or return excess funds. In addition, VI
Finance and VIDE did not have procedures that would have allowed the immediate return of
funds when VIDE discovered the duplicate payments.

According to 34 C.F.R. § 80.20 (b) (7),

         Procedures for minimizing the time elapsing between the transfer of funds
         from the U.S. Treasury and disbursement by grantees . . . must be followed
         whenever advance payment procedures are used. . . . When advances are
         made by . . . electronic transfer of funds methods, the grantee must make
         drawdowns as close as possible to the time of making disbursements.

Pursuant to 31 C.F.R. § 205.7 (c) (4) (September 7, 2000), a State shall request funds not more
than three business days prior to the day on which it makes a disbursement.

The regulations at 31 C.F.R § 205.12 (a) (September 7, 2000) provide that a State will incur an
interest liability to the Federal Government from the day Federal funds are credited to a State
account to the day the State pays out the funds for program purposes.

On April 27, 2001, VIDE received from ED two duplicate payments, one for $346,363 and one
for $128,081. GAPS data showed two separate VIDE requests for these funds. The $346,363
receipt was comprised of a drawdown request from one Elementary and Secondary Education
grant totaling $196,790, one Individuals with Disabilities Education Act (IDEA) grant totaling
$147,412, and one English Language Acquisition, Language Enhancement, and Academic
Achievement for Limited English Proficient Students grant totaling $2,161. The $128,081
receipt was comprised of drawdown requests from three Elementary and Secondary Education
grants totaling $123,898 and one IDEA grant totaling $4,183.

VIDE recognized the duplicate receipts and notified both VI Finance and ED in May 2001.
ED’s Office of the Chief Financial Officer agreed that VIDE could either use the funds to offset
future expenses or return the funds, but within three business days, as required by cash
management regulations.

An additional $7,641 from the 1999 Consolidated Grant had been received as a duplicate
payment on August 11, 2000. Neither VI Finance nor VIDE recognized the duplicate receipt of


                                                         9

The Virgin Islands Department of Education                                    Final Report
Did Not Effectively Manage Its Federal Education Funds                     ED/OIG A02-C0012

$7,641 although it showed on the bank statements of June and August 2000. In addition, VI
Finance did not record the duplicate $7,641 payment as a receipt on the FMS. A similar finding
was reported in the ED-OIG report “The Virgin Islands Government Lacks Adequate
Management Controls Over the Administration of Its IDEA, Part B Grant Program Salary Costs”
(A04-A0015 – July 2001).

VIDE offset $342,248 of the $346,363 payment, but did so from July 5, 2001 through August 10,
2001, after the required three business days. GAPS records show that VIDE returned $4,113 of
the remaining $4,115 on April 5, 2002 and the $128,081 payment on September 27, 2002.
Because of the untimely use or return of the duplicate draws, the imputed interest cost to ED as
of August 21, 2003, was $28,261. The $7,641 had not been returned.

Since neither VIDE nor VI Finance had policies and procedures on how to treat duplicate
receipts, during the course of our audit they began consideration of how to return the funds
without creating inaccurate entries on the FMS.

Recommendations:

We recommend that the Assistant Secretaries for Elementary and Secondary Education and
Special Education and Rehabilitative Services, and the Director for English Language
Acquisition, Language Enhancement, and Academic Achievement for Limited English Proficient
Students require:

3.1 	 VIDE and VI Finance to return to ED $7,641 not recognized as a duplicate payment from
      ED and enter it into the FMS;

3.2 	 VIDE and VI Finance to update and return to ED the interest liability associated with the
      untimely use or return of duplicate payments;

3.3 	 VIDE and VI Finance to develop and implement procedures that will allow for the
      immediate return of duplicate payments from ED; and

3.4 	 VIDE to reconcile all receipts with FMS and bank statements.

VIDE Comments – VIDE did not concur with the finding since it had returned duplicate
payments of $128,081 and $4,113 to ED. VIDE was determining how to treat the remaining
$7,641. If the funds were not already returned, they were going to be adjusted against future
expenses or returned as deemed necessary. VIDE agreed with the remaining recommendations,
including the computation of imputed interest, the determination of whether procedures
adequately address the return of duplicate payments, and the continued reconciliation of receipts
with FMS and the bank statements on a more frequent basis.

OIG Response – OIG agrees that duplicate payments of $128,081 and $4,113 were returned to
ED and changed the report to reflect the impact of this information. GAPS records confirmed
that VIDE refunded $4,113 on April 5, 2002, and $128,081 on September 27, 2002, but not
within the required three business days. As of August 21, 2003, the imputed interest of these late
uses and returns was $28,261.


                                                         10
The Virgin Islands Department of Education                                    Final Report
Did Not Effectively Manage Its Federal Education Funds                     ED/OIG A02-C0012



Finding 4

VIDE’s processes for maintaining and monitoring encumbrance data were ineffective


VIDE could not reconcile its outstanding obligations with VI Finance’s FMS encumbrance data.
Encumbrances were being erroneously increased on the FMS without apparent reasons. In
addition, VIDE often circumvented the normal payment process by requesting straight payments,
which did not liquidate or reduce encumbrances because the payment documents could not be
associated with specific encumbrances. The inflated balances reduced the available funds for
encumbering subsequent requisitions or paying other expenses. This impacted VIDE’s ability to
manage its funds.

According to 34 C.F.R. § 80.20 (b) (2), accounting records “[M]ust contain information
pertaining to grant or subgrant awards and authorizations, obligations, unobligated balances,
assets, liabilities, outlays or expenditures, and income.”

Pursuant to 34 C.F.R. § 80.40 (a), “Grantees are responsible for managing the day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity.”

When FMS encumbrances were improperly increased (or decreased), there was no systematic
process to detect these erroneous changes. Because the FMS encumbrances were not always
being liquidated after payment, adjusted as warranted, or removed from the system when no
longer valid, FMS balances did not agree with VIDE information. To resolve the problem, VI
Finance annually provided VIDE with a listing of all outstanding encumbrances.

VIDE determined which encumbrances were still valid or accurate, identified necessary
adjustments, and returned the printout to VI Finance so that deletions and changes could be
made. However, this process was not working effectively since the recommended changes and
corrections were not always made. Further, an annual reconciliation of encumbrances with
expenses and obligations did not provide VIDE with the needed flexibility to manage its funds
throughout the grant periods.

For example, for the 1998 Consolidated Grant, the FMS had encumbrances totaling $995,225,
while the VIDE Business Office provided the OIG with only $96,404 of outstanding obligations.
This demonstrates the need for VIDE to continually reconcile the VI Finance encumbrance data
with outstanding obligations.

The FMS also generated internal transactions that impacted the balances of obligations. When
obligations were improperly increased, there was no systematic process to detect the erroneous
changes. For example, one obligation - S1096101 - had an FMS balance of $52,414 when it
should have been zero. A Department of Finance employee concurred that the balance was
increased on three separate occasions for no apparent reason. She corrected the problem with a


                                                         11 

The Virgin Islands Department of Education                                   Final Report
Did Not Effectively Manage Its Federal Education Funds                    ED/OIG A02-C0012

“Voucher for Adjustment of Encumbrance” that reversed the $52,414 and left a correct balance
of zero.

The FMS had a system flaw that allowed obligations to be increased by internally generated
transactions. VI Finance personnel were researching the problem to determine the cause.

Another situation, which caused the encumbrance data in the FMS to be overstated, involved
attempts to expedite payments. VIDE often circumvented the normal payment process by
requesting straight payments. These straight payments did not liquidate or reduce encumbrances
because the payment documents could not be associated with specific encumbrances. According
to the Director of the VIDE’s Business Office, straight payments were used in limited situations,
such as employees’ travel advances, registration fees, and emergency purchases.

From October 1, 1997 through July 31, 2002, VIDE sent to VI Finance $12.9 million in straight
payments to be processed for the Consolidated grants. We concluded that these payments may
have had outstanding obligations that were never liquidated.

When encumbrances were not liquidated from the FMS or the encumbrances were erroneously
increased on the FMS, the inflated encumbrance balances reduced the available funds for
encumbering other requisitions or paying expenses. This impacted VIDE’s ability to effectively
manage its funds.

Recommendations:

We recommend that the Assistant Secretaries for Elementary and Secondary Education, Special
Education and Rehabilitative Services, and Postsecondary Education, and the Director for
English Language Acquisition, Language Enhancement, and Academic Achievement for Limited
English Proficient Students require:

4.1 	 VIDE and VI Finance to develop a process that would allow VIDE to reconcile monthly
      the FMS encumbrance data with VIDE’s known obligations;

4.2 	 VI Finance to determine the cause for system generated increases in encumbrances and
      make the necessary changes to prevent further occurrences;

4.3 	 VIDE and VI Finance to associate straight payment documents with encumbrances and
      liquidate those encumbrances as necessary; and

4.4 	 VIDE to minimize the use of straight payments and ensure that a straight payment is never
      used when an outstanding encumbrance exists.

VIDE Comments – VIDE adopted the recommendations in accordance with the Compliance
Agreement. Reconciliations were being done on a semi-annual basis. At the end of year three of
the Compliance Agreement, reconciliations would be performed monthly.




                                                         12 

The Virgin Islands Department of Education                                Final Report
Did Not Effectively Manage Its Federal Education Funds                 ED/OIG A02-C0012

OIG Response – For VIDE to most effectively manage its funds, it must closely examine the
straight payments and liquidate associated encumbrances. VIDE should perform monthly
reconciliations sooner in order to enhance its ability to better control its funds.




                                                         13 

The Virgin Islands Department of Education                                    Final Report
Did Not Effectively Manage Its Federal Education Funds                     ED/OIG A02-C0012



Finding 5

VIDE did not monitor the status or receipt of deliverable goods and services after making
advance payments to vendors


Although VIDE often paid its vendors in advance, VIDE did not always follow up to determine
whether goods and services were actually received. VIDE maintained records of all pre-paid
requisitions, but did not always monitor the status or receipt of goods and services on advance
payments made because they lacked the necessary personnel to perform the work. In addition,
VIDE lacked guidelines and procedures that addressed advance payments and subsequent follow
up. As a result, VIDE sometimes expended ED grant funds on goods and services that were not
delivered.

Pursuant to 34 C.F.R. § 80.40 (a), “Grantees are responsible for managing the day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved.”

Many vendors requested advance payments from VIDE before delivering goods and services
because VIDE had been slow in processing payments due to shortage of funds. For example, a
computer equipment vendor delivered $24,092 in goods to St. Croix in 1996, but had not been
paid as of April 2, 2003. In other cases, checks had been cut, but held for up to 10 months before
they were mailed to the vendor.

The VIDE Business Office maintained a record of advance payments made named “Vendors’
Advance Payment Register.” The record included relevant information, such as the total amount
invoiced by vendor, the requisition number, and the percentage and amount of the prepayment
made. Although the form also provided for determining whether the goods and services were
received, the VIDE Business Office did not always perform work to determine the percentage or
amount of the order received when a vendor provided a partial shipment.

For example, a local vendor had 24 fully paid vouchers totaling $69,798 related to 1998, 1999,
and 2000 requisitions, but only $5,675 of the equipment had been delivered. Subsequently, the
vendor was waiting for change orders to complete the deliveries because the equipment was
either obsolete or no longer in stock. A VIDE official stated they did not have the personnel to
perform the follow up work on these deliveries.

We reviewed nine records of advance payments made and found that four contained receiving
reports, whereas five did not have receiving reports. VIDE does not have a system that will
allow it to effectively follow up on prepaid and non-delivered items.




                                                         14 

The Virgin Islands Department of Education                                     Final Report
Did Not Effectively Manage Its Federal Education Funds                      ED/OIG A02-C0012

Recommendations:

We recommend that the Assistant Secretaries for Elementary and Secondary Education, Special
Education and Rehabilitative Services, and Postsecondary Education, and the Director for
English Language Acquisition, Language Enhancement, and Academic Achievement for Limited
English Proficient Students require VIDE to:

5.1 	 Establish written procedures and implement practices to monitor the receipt of goods and
      services after making advance payments to vendors;

5.2 	 Determine the status of all requisitions with advance payments and follow up as necessary
      to secure the ordered goods and services; and

5.3 	 Pay all outstanding obligations when the goods have been delivered.

VIDE Comments – VIDE concurred with the finding and recommendations and agreed to
incorporate advance payment procedures into its Policy and Procedures Manual.

OIG Response – None




                                                         15 

The Virgin Islands Department of Education                                   Final Report
Did Not Effectively Manage Its Federal Education Funds                    ED/OIG A02-C0012


                                                   Background
VIDE is the state education agency for the VI that is responsible for administering all ED
programs. VI Finance is the official record keeping entity for the VI Government. VI Finance is
responsible for accounting for all expenditures of Federal grants received from ED. The VI has
two local education agencies; the school districts of St. Thomas/St. John and St. Croix.

VIDE has had serious and recurring deficiencies in its administration of Federally funded
programs. As a result, ED’s Office of Special Education and Rehabilitative Services (OSERS)
designated VIDE a “high-risk grantee” and imposed special conditions on its fiscal year 1998
Special Education grant award. The special conditions required VIDE to provide ED with
monthly reports on its efforts to come into full compliance with Part B of its IDEA grant. When
VIDE did not demonstrate significant progress, OSERS proposed to VIDE a voluntary
compliance agreement. Signed on December 12, 1999, the compliance agreement was a means
of ensuring a continued flow of Part B of IDEA funds while VIDE implemented a structured
plan to come into full compliance with the statute.

Recent audit work by ED-OIG and on-site visits by ED programs’ staff (from the Offices of
Elementary and Secondary Education, Vocational and Adult Education, and OSERS) make clear
that large-scale fiscal accountability and programmatic problems that have existed for a number
of years continue to exist. Serious deficiencies are present in many key aspects of procurement,
program planning and implementation, and financial and property management, and include the
lack of appropriate record keeping and the lack of proper fiscal reconciliations.

ED has worked closely with VIDE and with other VI agencies to address these major issues, but
it is clear that the problems cannot be corrected by the VI immediately and that the VI needs
more than one year to correct them. Therefore, in order to remedy this condition, ED consented
to enter into a comprehensive, three-year compliance agreement with VI. Through the
compliance agreement, signed on September 23, 2002, the VI, with assistance from ED, agrees
to develop integrated and systemic solutions to problems in managing Federal education funds
and programs. It is also intended to ensure an effective planning and evaluation process
throughout VI programs and initiatives. The Compliance Agreement addresses four areas of
crosscutting issues: (1) Program Planning, Design, and Evaluation; (2) Financial Management;
(3) Human Capital; and (4) Property Management and Procurement.

                                 Objective, Scope, and Methodology
The purpose of our audit was to determine whether VIDE was effectively managing and
appropriately expending its Federal education funds. Our audit covered grants awarded during
the period October 1, 1994 through February 24, 2000.

To accomplish our audit objectives, we performed the following:

     •    Reviewed VIDE’s 1998, 1999, and 2000 Single Audit reports and working papers;
     •    Analyzed ED’s grant data;
     •    Reviewed applicable Federal and VI laws and regulations;


                                                         16
The Virgin Islands Department of Education                                     Final Report
Did Not Effectively Manage Its Federal Education Funds                      ED/OIG A02-C0012

     • 	 Interviewed VI Government officials to determine and review VI’s policies and 

         procedures covering drawdowns, payments and encumbrances; 

     • 	 Reviewed and tested VIDE’s drawdowns made when grants were reopened;
     • 	 Extracted and analyzed encumbrance data from the FMS;
     • 	 Analyzed the processes relating to advance payments and follow up of the delivery of
         goods and services; and
     • 	 Reviewed a compliance agreement report prepared by ED.

Our initial goal was to analyze VIDE’s use of Title VI funds. As we were analyzing the use of
Title VI funds, we became aware of financial management issues related to other ED grants.
First, we noted that substantial amounts of Federal education funds could lapse and be returned
to the U.S. Department of Treasury because VIDE had not spent the grant monies prior to the
grants’ closing dates. Consequently, we refocused our audit on determining what amount of
funds had lapsed or were likely to lapse and whether funds were properly used when the grants
were reopened. Second, we found that VIDE had received duplicate payments from ED. Thus,
we determined the disposition of those funds.

To assist us in achieving our audit objectives, we obtained detailed data extracts in electronic
format from VI Finance’s FMS. To test the FMS data, we judgmentally selected and examined
the 85 largest dollar values of VIDE’s expenditures and compared them with the underlying
documentation maintained by VIDE and VI Finance. Based upon our comparison of original
documentation to FMS data, we found the data was sufficiently reliable. In all cases, the
supporting documentation existed and corresponded to the FMS information. We also selected
all the payment transactions associated with ED grants as recorded on the FMS during the period
October 1, 1997 through July 31, 2002 to determine potential straight payments and tested the
validity of the highest dollar draws that appeared in GAPS as of August 9, 2001 from the 1995,
1997, and 1998 Consolidated Grants and all 20 grants that appeared with possible lapsed funds.
The 1997 Consolidated Grant included funding from both the 1996 and 1997 years.

Our audit covered VIDE’s grants awarded by ED during the period October 1, 1994 through
February 24, 2000. We performed fieldwork at VIDE St. Thomas and VI Finance during the
period May 15, 2001 to August 23, 2002, the day of our exit conference with VI government
officials. Updated GAPS data as of August 12, 2003 was incorporated into the findings
presented.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.

                                Statement On Management Controls
As part of our review we assessed the system of management controls, policies, procedures, and
practices applicable to VIDE’s administration of Federal education funds. Our assessment was
performed to determine the level of control risk for determining the nature, extent, and timing of
our substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed and classified the significant controls into the
category of grant funds’ management. Because of inherent limitations, a study and evaluation


                                                         17 

The Virgin Islands Department of Education                                   Final Report
Did Not Effectively Manage Its Federal Education Funds                    ED/OIG A02-C0012

made for the limited purpose described above would not necessarily disclose all material
weaknesses in the management controls. However, our assessment disclosed significant
management control weaknesses which adversely affected VIDE’s ability to administer Federal
education funds. These weaknesses allowed funds to lapse; improper spending of expired funds;
and failure to use or return duplicate payments from ED in a timely manner. Other weaknesses
included the failure to effectively maintain and monitor encumbrance data and monitor the status
or receipt of deliverable goods and services after making advance payments to vendors. These
weaknesses and their effects are fully discussed in the AUDIT RESULTS section of this report.




                                                         18 

                                                            ATTACHMENT A 

                                                     Lapsed Funds as of March 12, 2003 


                                                                                                     GAPS Balance           Lapsed
Grant                                                 Award Number        Total Authorization       March 12, 2003           Funds        Remarks
  1 Special ED Training Personnel                      H029H940027 $                    425,000 $              82,419 $            82,419
  2 Impact Aid                                         S041Z975692 $                    168,666 $                   0 $
                                                                                                                                       0
  3 Impact Aid                                         S041Z985692 $                    148,876 $                   0 $
                                                                                                                                       0      •
  4 Goals 2000                                         S276A960059 $                    738,890 $                   0 $           358,733
  5 Goals 2000                                         S276A970059 $                    525,344 $             508,989 $           508,989
  6 Goals 2000                                         S276A990026 $                    502,715 $               2,588 $           502,715    ♦
  7 Goals 2000                                         S276A990036 $                    500,127 $             500,127 $
                                                                                                                                      0       •
  8 Technology Literacy Challenge                      S318X970056 $                    410,188 $                   0 $           274,940
  9 Technology Literacy Challenge                      S318X980056 $                    867,252 $             269,908 $           269,908
 10 Technology Literacy Challenge                      S318X990056 $                    860,101 $             528,552 $           519,800    *
 11 Emergency Immigrant Education                      T162A970005 $                    180,880 $                   0 $            45,210     •
 12 Emergency Immigrant Education                      T162A980025 $                    370,726 $             158,780 $                 0
 13 SEA - Improving Disabilities ED Abilities          T194Q950024 $                               $                0    $         41,754     •
 14 SEA - Improving Disabilities. ED Abilities         T194Q980039 $                  300,000                  68,836 $
                                                                                                   $
                                                                                      300,000                                          0      o
 15 Robert C. Byrd Scholarship                         P185A990058 $                     60,000 $              53,322 $            53,322
 16 Class Size Reduction                               S340A990008 $                    835,936 $             597,325 $           597,325
 17 1995 Consolidated                                  S922A950005 $                 17,597,199 $                   0 $           148,252     •
 18 1997 Consolidated                                  S922A970004 $                 36,907,094 $           1,057,598 $        1,057,598
 19 1998 Consolidated                                  S922A980004 $                 12,940,676 $           2,177,894 $         2,081,490    *
 20 1999 Consolidated                                  S922A990004 $                 13,092,068 $             213,865 $           213,865
      Total                                                                                                              $      6,756,320
 • The lapsed balance was de-obligated and reverted to the U.S. Treasury.
 ♦	 According to the VIDE’s Director of the Federal Grants Office, the $500,127 spent ($502,715 - $2,588) belonged to the S276A990036 grant, but
   were posted in GAPS against this grant. He was unaware that ED had awarded two Goals 2000 grants in one year. As a result, the $502,715
   lapsed.
 *	 Outstanding obligations that we reviewed and found to be legitimate were deducted from the lapsed funds column.
 o VI
    	 Department of Finance records indicate full use of the grant. However, GAPS had a record of only $6,678 being requested.
                                       ATTACHMENT B             


                           Government orthe United States Virgin Islands
                               'Deyartment of 'Eaucation
                                     Office or the Commissioner
                                        #44-46 Kongens Gade
Tel: (340) 774-0100              St. Thomas, U.S. Virgin Islands 00802     Fax: (340) 779-7153




 August 11 , 2003


 Mr. Daniel P. Schultz
 United States Department of Education
 Office of Inspector General
 75 Park Place, 12'h Floor
 New York, NY 10007

 Dear Mr. Schultz:

         Transmitted herewith are the written comments on the findings of the draft report
 of the audit, The Virgin Islands Department of Education Did Not Effectively Manage Its
 Federal Education Funds - ED-OIG/A02-C0012, dated July 2003.

         We reviewed each finding and provided the required substantiating data to
 support our position. Additionally, the Virgin Islands Department of Education outlined
 steps that will be taken to correct the cited deficiencies. .

         Should you have any questions or require additional information, do not hesitate
 to contact us.

 Sinc~..t:    A       /1

   ~
 Noreen Michael, Ph.D.
 Commissioner

 NM/kpt
 ENCLOSURES :
 c:   Mrs. Juel T. R. Molloy, Governor' s Liaison to the Department of Education
      Dr. Rita J. Howard, Assistant Commissioner
      Mr. William 1. Frett, Insular Superintendent, St. Thomas/St. John District
      Mr. Terrence T. Joseph, Insular Superintendent, St. Croix District
      Ms. Sonia Clendinen, Deputy Commissioner, Fiscal and Administrative Services
                   VIRGIN ISLANDS DEPARTMENT OF EDUCATION 

                    MANAGEMENT RESPONSE AND ACTION PLAN 

                                ED-OIG/A02-C0012 



“VIDE DID NOT EFFECTIVELY MANAGE ITS FEDERAL
FUNDS”

Finding No. 1        VIDE had approximately $6.8 million ED funds that lapsed.

                 • 	 VIDE does not concur with finding. Of the $6.8 million indicated VIDE is
                     only responsible for $2,598,133.92 of lapsed funds identified. The
                     remainder of the funds was due to USDOE poor management of grants to
                     VIDE. First, the finding appears to be slanted. VIDE has requested the re-
                     opening of several closed grants in order to complete the liquidation process
                     of 1) draws needed to pay vendors who have delivered goods and 2)
                     reimbursement for funds paid to vendor while VIDE still awaits re-opening of
                     grants. USDOE has not responded definitively to our repeated request to re-
                     open these grants VIDE has made repeated requests to re-open these grants.
                     Instead, there has been requests for additional information which although
                     provided has still not resulted in definitive responses. This process has
                     resulted in significant time lapses spanning the initial request from re-
                     opening to the present, including the time requested by this audit. Our review
                     of the audit reveals that VIDE is responsible for only $2,598,133.92 of lapsed
                     funds identified. The remainder is as follows: 1) VIDE requested the re-
                     opening of grants totaling $3,146,482.08 and 2) VIDE did not receive
                     $1,011,704 in grant awards. USDOE neither followed up on these programs
                     nor kept in contact with staff in VIDE to alert them that the funds were
                     available even though the Department knew we had no visual access to the
                     GAPS system during the time period referred to in the Audit Report.

                • 	 To further support our non-concurrence that we were at fault for the lapsed
                    funds, VIDE will like to document instances in which ED has failed to manage
                    federal grants coming to VIDE. For example the Goals 2000 grant listed, as
                    Item #7 in Attachment A will show that USDOE issued a Notice of Grant Award
                    for a period that had already expired. VIDE was forced to request ED to
                    extend the period of the award or recognize the funds as lapsed even before the
                    grant was awarded. Further, to complicate matters instead of USDOE
                    increasing the existing grant award, as is customary, USDOE issued a new
                    notice of Grant Award for Goals 2000 in the same funding year, which VIDE
                    never received. It appears doubtful that ED sent out the other grant awards
                    mentioned in the audit for the Goals 2000 program (see item #5 & #6 on
                    attachment A) that were entered into GAPS system.
Recommendations:

        We recommend that the Assistant Secretary for Elementary and Secondary Education, Special
        Education and Rehabilitative Services, and Postsecondary Education, and the Director for
        English language Acquisition, Language Achievement for Limited English Proficient Students
        require VIDE to:

1.1 	   Access and use the data in GAPS to be fully aware of the grants received, payments made,
        available balances, and funding periods;

        VIDE has concurred with the recommendation and has already implemented procedures in
        which telephone calls to GAPS hotline is not used. The GAPS system on-line is now being
        utilized to make all ED draws, adjustments, monitor open and closed grants and perform
        reconciliation. This system was adopted on December 20, 2002.

1.2 	   Improve its internal grant tracking system and reconcile regularly with the data in GAPS;

        VIDE has concurred with the recommendation and has implemented procedures as stated
        above in item 1.2. These measures were developed as a result of the Compliance Agreement
        (signed September 23, 2002). Procedures were developed and implemented as of March 31,
        2003. It must be stated, however, that this is currently being done on a semi-annual basis,
        per the Compliance Agreement. It is expected that VIDE will be reconciling quarterly
        during the second year of the Compliance Agreement and monthly by the third year.

1.3 	   Utilize its internal grant tracking system to identify outstanding obligations and liquidate them
        prior to the closing of a grant. This will require reconciliation between GAPS, FMS, and
        records maintained by the VIDE Business Office; and

        VIDE concurs with the recommendation and is in compliance per Compliance Agreement
        as stated in item 1.2 response above.

1.4 	   Provide ED program officials with requisitions’ documentation when requesting grants to be
        reopened.

        VIDE agrees to this procedure now that it is stated. However this method has not really
        caused our grants to be re-opened. Timely re-opening of grants is necessary to be in
        compliance with the Compliance Agreement. Thus far the Department has substantially
        failed to assist us in this area.


Finding No. 2             VIDE improperly expended $1.5 million in expired funds

                     •	   V IDE does not concur with this finding. VIDE received approval from the
                          grantor agency (ED) to obligate and liquidate under the 1995 grant and we
                          made obligations and liquidated obligations based on their approval. We
                          realized it was only by ED’s permission, that VIDE could have obligated
                          these funds. Based on the permission granted, VIDE obligated and liquidated
                         under the 1995 grant. It is therefore unfair to the VIDE to repay any of those
                         funds used for federal programs operated by the VIDE. Secondly, the payroll
                         costs drawn from the 1999 grant are valid charges on that grant and those
                         costs should remain charged against that grant (VIDE is launching a full
                         review of this finding in order to insure that this is a correct procedure.).

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education require VIDE
to:

2.1 	   Return to ED the $1,535,287 of expired funds expended improperly;

                    •	   VIDE does not concur with the return of $1,535,287. VIDE was granted
                         permission by the U.S. Department of Education to obligate and liquidate the
                         $649,025 based on the attached correspondence which was previously
                         provided to the auditors. Because of USDOE’s improper Grants
                         Management, it is unfair to fault the VIDE who depends on this grantor for
                         technical assistance and advice. VIDE recommends that USDOE train its
                         personnel in the program areas to assist its grantees with technical advice on
                         grant administration relating to ED grants. This training should be extended
                         to VIDE personnel to avoid further confusion with what should or could be
                         done under unforeseen circumstances outside the issues already outlined in
                         the Compliance Agreement. In regards to the 1997 funds the payroll costs
                         drawn from the 1999 grant are valid charges on that grant and those costs
                         should remain charged against that grant (VIDE is launching a full review of
                         this finding in order to insure that this is a correct procedure.). These
                         expenditures (adjustment vouchers) were rejected by the V.I. Department of
                         Finance and should remain on the grant where they were originally charged.
                         The only required change, to make this adjustment, would be to request that
                         USDOE switch the draw amount made under the 1997 grant back to 1998
                         grant.

2.2 	   Implement procedures to ensure that ED funds are only spent for obligations made during the
        allowable grant period;

                    •	   VIDE has implemented procedures based on the Compliance Agreement
                         which was entered into by USDOE and VI in order to rectify these problems
                         since September 23, 2002. This was subsequent to this audit. The procedures
                         were implemented on March 31, 2003. Please see the attached.

2.3 	   Provide ED program officials with expense records documenting that the original obligations
        dates were within the Tyding period whenever grants are to be reopened.

                    •	   VIDE concurs with providing this information to USDOE, however, even
                         after this has been done, VIDE still does not have grants re-opened by
                         USDOE in a timely manner, and in some cases, VIDE has had to pay vendors
                        who are not willing to wait as long as two years for payment (the period in
                        which some grants have remained closed despite requests to have them re-
                        opened).


Finding No. 3 	         VIDE failed to return $482,085 in duplicate payments from ED in a
                        timely manner

                        VIDE does not concur with the finding. Our records indicate that $128,081
                        has been returned. Also $4,113 has been returned under separate cover.
                        (Please see documents attached)

Recommendations:

We recommend that the Assistant Secretaries for Elementary and Secondary Education and Special
Education and Rehabilitative Service, and the Director for English Language Acquisition, Language
Enhancement, and Academic Achievement for Limited English Proficient Students require:


3.1 	 VIDE and VI Finance to return to ED the $139,837 resulting from the duplicate receipt of funds.
      This would include the duplicate receipt of $128,081, the remaining $4,115 that was not offset
      against future expenses for receipt, and the $7,641 not recognized as a duplicate payment from
      ED;

     As stated above the $128,081 and the $4,115 were already returned to USDOE. Steps are now
     being taken to determine how the remaining funds of $7,641 were handled. If these funds
     were not already returned they will be adjusted to future expenses or returned as deemed
     necessary to correct this duplication.

     Person(s) responsible: 	               Sonia Clendinen, Deputy Commissioner Fiscal &
                                            Administrative Services

3.2 	 VIDE and VI Finance to determine the interest liability to ED associated with the untimely use
      or return of duplicate payments;

     VIDE will determine with the V.I. Department of Finance any liability associated with this
     cost and return the funds to USDOE per said determination October 30, 2003.

     Person(s) responsible 	                Sonia Clendinen, Deputy Commissioner, Fiscal and
                                            Administrative Services


3.3 	 VIDE and VI Finance to develop and implement procedures that will allow for the immediate
      return or use of duplicate payments from ED;

     VIDE has developed a Central Management Financial System that streamlines procedures for
     handling transactions into the Financial Management System. This document is being
      reviewed to determine if procedures for handling duplicate payments were included in this
      document. If they were not, they would be included to allow for faster returns on excess cash
      transaction.

      Person(s) responsible 	               Sonia Clendinen, Deputy Commissioner, Fiscal and
                                            Administrative Services


3.4   VIDE to reconcile all receipts with FMS and bank statements; and

      Currently, VIDE does reconcile with the FMS and the bank statement per the Compliance
      Agreement, however, this is currently being done on a semi-annual basis. It is not expected
      until year three (3) of the Compliance Agreement for this to be increased to monthly (please
      see copy of VI Compliance Agreement with ED).

      Person(s) responsible 	               Sonia Clendinen, Deputy Commissioner, Fiscal and
                                            Administrative Services


3.5   VI Finance to properly enter the $7,641 duplicate payment from ED into the FMS;

      VIDE will work with the Department of Finance to determine if the funds were posted to the
      FMS and make the posting to the system if possible.

      Person(s) responsible 	               Sonia Clendinen, Deputy Commissioner, Fiscal and
                                            Administrative Services



Finding No. 4	         VIDE’s process for maintaining and monitoring encumbrances data were
                       ineffective


Recommendations:

      We recommend that the Assistant Secretaries for Elementary and Secondary Education, Special
      Education and Rehabilitative Services, and Postsecondary Education, and the Director for
      English Language Acquisition, Language Enhancement, and Academic Achievement for
      Limited English Proficient Students require:

      Pursuant to the Compliance Agreement between the V.I. Government and the U.S. Department
      of Education, VIDE has adopted the recommendation listed below in section four 4.1 to 4.4 with
      the proposed time periods, as specified in the Compliance Agreement. Currently, VIDE is
      performing its reconciliation on a semi-annual basis. As per the Compliance Agreement by the
      end of year three (3) VIDE will be expected to reconcile on a monthly basis.
     Person(s) responsible 	                  Sonia Clendinen, Deputy Commissioner, Fiscal and
                                              Administrative Services



     4.1 	 VIDE and VI Finance to develop a process that would allow VIDE to reconcile monthly
           the FMS encumbrance data with VIDE’s known obligations;

     4.2 	 VI Finance to determine the cause for system generated increases in encumbrances and
           make the necessary changes to prevent further occurrences;

     4.3 	 VIDE and VI Finance to associate straight payment documents with encumbrances and
           liquidate those encumbrances as necessary; and

     4.4 	 VIDE to minimize the use of straight payments and ensure that a straight payment is never
           used when an outstanding encumbrance exists.



Finding No. 5 	           VIDE did not monitor the status of receipt of deliverable goods and
                          services after making advance payments to vendors.


                          VIDE concurs with the finding. VIDE will amend its Policies and
                          Procedural Manual to include advance payment procedures. All
                          recommendations listed in items 5.1 to 5.3 will be incorporated in the new
                          procedures.


Person(s) responsible 	                       Sonia Clendinen, Deputy Commissioner, Fiscal and
                                              Administrative Services


Recommendation:

5.1 	 Establish written procedures and implement practices to monitor the receipt of goods and
      services after making advance payments to vendors;


5.2 	 Determine the status of all requisitions and with advance payments and follow- up as
      necessary to secure the ordered goods and services and


5.3 	 Pay all outstanding requisitions when the goods have been delivered.
